<html>
<title> - LASERS: A HAZARD TO AVIATION SAFETY AND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
            LASERS: A HAZARD TO AVIATION SAFETY AND SECURITY

=======================================================================

                                (109-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure











                 U.S. GOVERNMENT PRINTING OFFICE

21-627                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)



























                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New       NICK J. RAHALL II, West Virginia
York, Vice-Chair                     BOB FILNER, California
LYNN A. WESTMORELAND, Georgia        JAMES L. OBERSTAR, Minnesota
VACANCY                                (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)






















                                CONTENTS

                               TESTIMONY

                                                                   Page
 McVenes, Terry, Executive Air Safety Chairman, Air Line Pilots 
  Association....................................................    13
Sabatini, Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration........................     7
 Walden, Randall, Technical Director, Air Force Rapid 
  Capabilities Office, accompanied by Colonel Peter Demitry, 
  Assistant Air Force Surgeon General Modernization..............    11
 Winder, Parry, First Officer, Delta Airlines....................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    25
Johnson. Hon. Eddie Bernice, of Texas............................    27
Oberstar, Hon. James L., of Minnesota............................    35

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 McVenes, Terry..................................................    29
Sabatini, Nicholas A.............................................    38
























            LASERS: A HAZARD TO AVIATION SAFETY AND SECURITY?

                              ----------                              Tu
esday, March 15, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Mr. Mica. Good morning. I would like to call this hearing 
of the House Aviation Subcommittee to order and welcome 
everyone this morning. I apologize for being a few minutes 
late. The only thing more important than my Subcommittee work 
is my constituents, and they were here in town in force this 
week.
    But welcome, and the subject of today's hearing relates to 
lasers. The question is what problems do lasers pose as a 
hazard to our aviation safety and security. The order of 
business is opening statements by members and one panel of 
witnesses. We will proceed with opening statements then hear 
from panelists and welcome other member's comments as we open 
this.
    As I said, today's hearing will focus on the safety and 
security issues relating to lasers that interfere with the 
operation of a number of civil aircraft. With the number of 
incidents of misuse and illegal use of lasers interfering with 
commercial pilot aircraft operations, it is important that we 
examine the laws, regulations and safeguards that we have in 
place to deal with this problem.
    A number of important questions need to be answered by 
those charged with the important responsibility for both 
protecting our pilots and also for protecting the flying 
public. Some of those questions, and I hope to get some answers 
today, are as follows: Do we have adequate laws to deal with 
those who would disrupt aviation safety by improper use of 
lasers? Do we need better regulations of laser equipment? Do we 
need better technology or defensive measures to deal with this 
problem? And do pilots have adequate training?
    We need to ask what safety and security threats do we face 
by this use of this technology in the future, and also if we do 
have a future incident in which lasers are used to disrupt or 
incapacitate a pilot, have we failed in our responsibility to 
protect passengers aboard the aircraft?
    Very powerful lasers are now available over the internet 
for just a few hundred dollars. What I would like to do at this 
point is just show a video clip from an Internet vendor which 
was recently shut down, but demonstrates the power of lasers.
    [Video presentation.]
    Mr. Mica. That laser, which is 20 times more powerful than 
the FDA maximum allowable power level for a laser pointer, 
burned a hole through the cup as you saw on the video in some 
seven seconds. The misuse of lasers could be dangerous and 
could also be irresponsible in its application.
    One of today's witnesses was injured by a laser while 
making a final approach to Salt Lake City. The FAA, DHS and the 
Domestic Events Network have adopted new procedures to catch 
anyone who points a laser into the cockpit of an aircraft. So 
far, the Department of Justice has made a handful of arrests 
under the Patriot Act. I think we should make it very clear 
today that we expect, those of us in Congress who deal with 
aviation safety and security, that all of these pranksters or 
people who misapply the use of lasers will be prosecuted to the 
fullest extent of the law.
    I also have concerns with the proposed Department of 
Defense visual warning system. At a time when we are trying to 
prevent lasers from disrupting aviation operations, the 
Department of Defense has created a warning system that flashes 
laser beams onto aircraft that violate the air space 
surrounding the National Capital Region. I would expect the 
department to take all necessary safety precautions before this 
system is ever activated.
    In a new era of laser technology, it is important that 
Congress take steps to make certain that the misuse and illegal 
use of laser technology is properly addressed in both law and 
regulation. It is my hope that this hearing will provide us 
with some of the answers to some of the questions that we have 
raised.
    I am now pleased to recognize our Ranking Member for his 
opening comments.
    Mr. Costello. Mr. Chairman, thank you. I do have an opening 
statement that I will enter into the record. I do have brief 
comments.
    First, let me thank you for calling this hearing today on 
whether lasers present a threat to aviation safety and 
security. Since the early 1990s, the FAA has documented more 
than 400 incidents involving lasers. To date, no aviation 
accidents have been attributed to lasers, although there have 
been a few cases where pilots have reportedly sustained eye 
injuries and we will hear about that today.
    The latest incident was this past Thursday, March 10, at 
Dallas-Fort Worth where a pilot sustained blurred vision and 
had to have the first officer land the aircraft. As you noted, 
the FAA has taken steps over the years to address safety issues 
surrounding lasers directed at aircraft. In 1995, the FAA 
developed and implemented standards to counter a surge in laser 
incidents. The standards defined safe laser exposure levels in 
zones surrounding airports, resulting in laser-free zones, a 
critical flight zone, and a sensitive flight zone.
    The FAA has also undertaken flight simulator studies on the 
effects of laser light on pilot vision and aircraft operations. 
I look forward to hearing from the FAA witness today to explain 
the results of these studies.
    While we have known about the safety issues surrounding 
lasers for a number of years, a recent chain of laser-related 
events prompts us to start looking at laser activity as a 
security issues. While none of the more than 400 incidents have 
been linked to terrorism, the Department of Homeland Security 
and the FBI issued a memo last December warning that terrorists 
have explored using lasers as weapons. Since December of 2004, 
there have been more than 100 incidents involving lasers, which 
have resulted in significant media attention.
    In response to these events, the FAA issued an advisory 
circular in January of 2005 which would improve the reporting 
requirements between flight crews, the FAA and appropriate law 
enforcement and security agencies via the Domestic Events 
Network. Pilot groups such as the Air Line Pilots Association, 
ALPA, who happen to be here today, have provided 
recommendations to protect and assist flight crews in the event 
that they encounter laser in flights.
    FAA studies reveal that pilots who were subjected to lasers 
within legal FDA standards have reported temporary vision 
impairments and brief periods of distraction, but more serious 
injuries could result from contact with more powerful lasers, 
as you noted, that are illegal but still available over the 
Internet. Additionally, extremely powerful military-grade 
lasers designed for blinding, while not widely available, may 
be an emerging threat to aviation.
    Therefore, it is important that we act to ensure that 
lasers, especially high-intensity lasers, never become a 
significant threat to safety or security.
    Mr. Chairman, I welcome the witnesses who are here to 
testify today and I look forward to hearing their testimony. I 
thank you for holding this hearing.
    Mr. Mica. Thank you. I appreciate your opening statement. 
Let me recognize Mr. Kennedy.
    Mr. Kennedy. Thank you, Chairman, for holding this hearing 
on this important topic.
    Since last September, law enforcement, DHS, the FAA, the 
airlines and their pilots have been warning of the dangers of 
passenger aviation from laser devices. A small $50 laser 
pointer, the kind you can buy from many retail outlets, can 
become a dangerous weapon to blind a pilot on a landing 
approach. Until now, all of the incidents reported to Federal 
law enforcement have been accidents or mischievous acts of 
children. But during today's hearings, we must begin to 
understand the nature of the threat.
    What kind of a threat do we face when even office equipment 
can threaten hundreds of lives in an instant? How can we 
address this threat to protect the tens of thousands of 
Americans who are 35,000 feet above at this time?
    As families prepare to travel this holiday season, what 
have we done and what can we do to further guarantee their 
safety? Let us never forget that it was something nothing more 
sophisticated than a simple box cutter that turned our own 
airline system in to four weapons of mass destruction on 
September 11.
    I thank the panel for being here and look forward to their 
comments.
    Mr. Mica. I thank the gentleman.
    Mr. Salazar?
    Mr. Salazar. Thank you, Mr. Chairman.
    I have a brief opening statement that I would like to make. 
I am pleased that we are holding this hearing today on aviation 
safety and security. As a pilot myself, I have watched with 
great concern the news reports on the use of lasers that impair 
pilots' visions. Commercial airline pilots already have enough 
to worry about when it comes to the safety of their passengers. 
This new trend of using lasers to blind pilots is alarming.
    I am also concerned that this could have greater 
consequence for national security and the safety of our Nation.
    I look forward to today's testimony. We must take 
appropriate steps to ensure aviation safety and security.
    Thank you very much.
    Mr. Mica. Are there further opening statements? Mr. 
DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for continuing to assert the Committee's role in protecting 
the safety of the flying public and the integrity of our 
system.
    There has certainly been a disturbing increase in incidents 
with these lasers. Obviously, the issues to deal with are 
availability. It is beyond the jurisdiction of this Committee, 
but hopefully we can make recommendations to some of our peers 
on Commerce or other committees, or to the Administration on 
further restrictions on the ownership and use of lasers. 
Certainly, protocols would be within the realm of the FAA and 
the airlines to develop training and research for 
countermeasures or prevention, whether it could be some sort of 
reflective coating on windshields or other things. Obviously, 
we should recommend that there be steps taken in that area.
    But these all have to also go in tandem with the other 
threats we have discussed here, shoulder-fired missiles, the 
fact that we still have gaping holes in our system to detect 
carry-on explosives and/or checked explosives, probably the 
most likely method of taking down a plane, and then the newly 
leaked or revealed or whatever it was report about ostensible 
al Qaeda exploration of new aviation targets, looking at 
potential vulnerabilities in the system.
    So there is a lot to do. This is one of many things we need 
to worry about. We will hear from an individual who was 
injured. I regret, Mr. Chairman, I have another hearing at the 
same time so I will have to step out, but I will be fully 
informed by my Ranking Member as to what steps we are taking.
    Thank you.
    Mr. Mica. I thank the gentleman.
    Additional opening statements? Ms. Norton?
    Ms. Norton. I thank you, Mr. Chairman, for focusing on yet 
another risk to air travel. It is a little disheartening to 
have to hold this hearing. Lasers have had so many important 
health and safety-related uses. The notion of this perverted 
use of lasers is something we have to get a hold of. This is 
not exactly a weapon of mass destruction, at least as it has 
been used now, but it is certainly not beyond our imagination 
to see how the prank use of a laser could cause an air crash 
with horrible consequences.
    I am not sure whether kids are taking movies too seriously; 
whether or not we ought to recommend that lasers, at least at a 
certain strength, that in order to buy them you perhaps should 
be an adult. I am not sure where the problem is coming from, 
who these people are. I will be very interested to hear that 
today. I am particularly interested that you are turning this 
technology on its head in the National Capital Region.
    Of course, another set of safety issues may be raised, but 
I think it is an important step in protecting the Nation's 
capital because as a plane out of communication with radio 
contact does not respond. As we know, about the only thing that 
can be done is to shoot that plane down.
    So I welcome the new technology to the extent that it is 
useful and works here, particularly in the Nation's capital.
    I thank you again for your leadership in calling this 
hearing, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Any other opening statements? If we do not have any other 
opening statements, Mr. Costello moves that we leave the record 
open for a period.
    Mr. Costello. For 10 days, Mr. Chairman
    Mr. Mica. Without objection, so ordered. Members are 
welcome to submit their comments for the record.
    I would like to now move to our panel of witnesses and 
introduce them. We have Mr. Parry Winder, First Officer from 
Delta Airlines. We have Mr. Nick Sabatini, who is the Associate 
Administrator for Aviation Safety with the Federal Aviation 
Administration. Mr. Randall Walden is Technical Director of Air 
Force Rapid Capabilities Office, accompanied by Colonel Peter 
Demitry, Assistant Air Force Surgeon General, Modernization. 
And finally, we have Captain Terry McVenes, Executive Safety 
Chairman of the Air Line Pilots Association.
    Welcome. What we would like you to do is try to make 
certain that you be as succinct as possible in delivery of your 
testimony. If you have additional information, data, something 
you would like submitted for the record, just request that 
through the Chair. We will include it in the record of this 
hearing.
    So with that, let me welcome Mr. Parry Winder, First 
Officer for Delta Airlines. We will hear from you, sir, and 
your particular experience and knowledge about the use of 
lasers. Thank you.

    STATEMENT OF PARRY WINDER, FIRST OFFICER, DELTA AIRLINES

    Mr. Winder. Thank you very much, Mr. Chairman. It is a 
pleasure to be with you today and members of the Committee.
    As introduced, I am Mr. Winder. I am with Delta Airlines. I 
am presently assigned as a flight instructor and proficiency 
check pilot in the simulator for Delta. I am qualified to fly 
as a First Officer and a Captain on the 737 Model 300.
    On the evening of September 22, 2004, making an approach 
into Salt Lake City, it was a beautiful evening. The weather 
was clear, visibility greater than 30 miles. There was a 
ceiling at approximately 25,000 feet. We acquired the airport 
at least 35 miles out or so and were cleared by Salt Lake City 
approach for a visual approach, landing to the north, runway 
35.
    Approximately a glide slope intercept about eight miles 
from the runway as we came down the instrument landing system, 
very startlingly and without any warning, the Captain I was 
flying with mentioned in words such as, ``What is this? What is 
going on?'' He pointed up to a console that lies overhead 
between us, we call it the overhead panel, and there was an 
intensely bright green-white light, and it was moving around 
erratically.
    I was hand-flying the airplane, which meant that I had the 
controls in my hand and the throttles as well. The autopilot 
was off and we were still speaking to Salt Lake City approach. 
At that point, I looked up and saw the light and continued to 
look forward and cross-check my instruments. As we normally do 
in the aviation profession, when we fly at night we tend to 
turn our instrument lights, our cockpit lights down low, which 
helps our visual acuity, especially in the landing phase of 
flight. Since our lights were down low, this was a very bright 
light. I initially thought it was a photo flash.
    Very shortly after that, I made the mistake of looking to 
my right slightly, just at the time the laser did in fact catch 
my right eye. The intensity of the light is nearly 
indescribable, other than the fact that I would liken it to 
looking at an arc-welder without a safety mask. It was very 
intense and very short-lived. I turned away immediately, closed 
my eye.
    At the same time, we received a frequency change from Salt 
Lake City approach to Salt Lake tower. Prior to leaving that 
Salt Lake approach frequency, the Captain mentioned to the 
authorities there, ``Hey, someone is trying to track us with a 
laser. We are getting hit with a laser.'' The response was, 
``Okay, we will report it.'' We immediately had the frequency 
changed, as I mentioned. Salt Lake City tower cleared us to 
land. The Captain then was in a discussion with the tower about 
where the laser was, where it was coming from, if we could 
identify it, et cetera.
    I was still hand-flying the airplane seeing spots in my 
right eye. The landing was essentially uneventful. It happened 
approximately two or three minutes later. We had the airplane 
on the ground, but I did notice that my depth perception was 
way off. As I was looking out to find the runway to flare the 
airplane to get it safely on the ground, I ended up flaring way 
too high and put the airplane a little more than normal on a 
vertical descent.
    We stopped the airplane and taxied clear of the runway. The 
processes between our cockpit and the air traffic control tower 
in trying to explain to them what happened seemed difficult and 
tenuous. That is because we really did not know what to say 
other than we had been tracked by a laser.
    When we got back into the gate, my Captain and I spent a 
few minutes and talked about what had happened. We determined 
that we were tracked in the cockpit for approximately six 
seconds, with the laser moving around, coming through what we 
call the R-2, my right number two window, at an angle we 
estimate to be approximately 30 to 40 degrees down, 
approximately two o'clock position.
    My altitude was approximately 2,400 feet above the ground, 
so we estimate the range of approximately 4,000 to 4,500 feet 
line of sight from point of origin. We concluded our business 
that night at the airport, and since it was the end of our 
rotation, I was driving home. I have about a one hour or so 
drive to my home north of the airport.
    While driving home, I noticed I was starting to get a dull 
headache in the back of my head. I noticed black spots 
appearing in my vision in my right eye. By the time I got home, 
the headache had intensified. I mentioned it to my wife. She 
said, ``Well, what do you think we ought to do? Do you need to 
go to the hospital?'' I said, ``I think I will be okay. Let's 
just go to sleep.'' I took a Motrin.
    I woke up the next morning in intense pain. It felt like 
somebody had actually pricked me in the eye with ice pick, as 
it were. We called our normal family eye doctor. He was out of 
town. They recommended an adjacent eye surgeon. We immediately 
were seen by the doctor, first thing in the morning. I was 
diagnosed at that time with an edema of my right retina, which 
means a swelling of the right retina. It felt to me, sir, like 
my eyeball was too big for the socket, like it was going to pop 
out. In fact, it was red and swollen and very irritated.
    The immediate concern was that the swelling would cause a 
detachment of the retina. So I was under the doctor's care for 
the next two weeks, every other day or so going in for a full 
dilation and examination of the retina to make sure that it did 
not detach or have any further complications.
    I am pleased to report that after approximately three or 
three-and-a-half weeks, I was able to regain my medical flying 
status through the FAA and our great flight surgeons at Delta, 
and have since been reinstated to flight status. I do have 
slight residual effects. I have noticed an over-sensitivity to 
light, especially in snow area where we live with direct 
sunlight, as well as some haloing in bright light conditions.
    Mr. Mica. I thank you for sharing with us your particular 
experience and the effects of lasers on your vision and ability 
to perform your duties.
    What we are going to do is go through and hear from all of 
the other panelists, and then we will get back for some 
questions.
    No stranger to the subcommittee is Nick Sabatini, as the 
Associate Administrator for Safety, Federal Aviation 
Administration. Welcome this morning. Welcome back. You are 
recognized.

STATEMENT OF NICHOLAS A. SABATINI, ASSOCIATE ADMINISTRATOR FOR 
        AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION

    Mr. Sabatini. Chairman Mica, Congressman Costello, and 
members of the subcommittee, good morning. It is a pleasure to 
be here today as the Subcommittee on Aviation explores an 
important issue for aviation safety, the focusing of lasers on 
cockpits of aircraft and helicopters.
    I am Nick Sabatini, Associate Administrator for Aviation 
Safety at the Federal Aviation Administration, FAA. This 
morning, I would like to provide an overview of how hand-held 
lasers are regulated, the potential of catastrophic events from 
the irradiation of a cockpit, and what the FAA is doing to 
protect air crew members from these incidents.
    With me today, and he is seated behind me, is Dr. Van 
Nakagawara, a research optometrist and vision research team 
leader at the FAA's Civil Aerospace Medical Institute, 
popularly known as CAMI. Dr. Nakagawara is the lead author of a 
study entitled, The Effects of Laser Illumination on 
Operational and Visual Performance of Pilots During Final 
Approach, which was published in June of 2004.
    In recent years, laser devices have become less expensive 
and more commonplace. Lasers are used in supermarket scanners, 
CD and DVD players, construction and surveying instruments, 
laser pointers for presentations, and other medical and 
industrial uses. Also, lasers are often used outdoors as part 
of orchestrated laser light shows at theme parks, casinos and 
special events.
    The issue of how lasers affect pilots and whether they pose 
a threat to aviation safety has received media attention 
recently. The aviation safety issue is very straightforward. 
Obviously, pilots use their eyes to obtain the vast majority of 
all the information needed to safely fly an aircraft. Operation 
of an aircraft at night presents additional visual challenges. 
Exposure to relatively bright lights such as a laser when the 
eye is adapted to low light levels can result in temporary 
visual impairment.
    Visual effects can last from several seconds to several 
minutes. The three most common physiological effects associated 
with exposure to bright lights are glare, flash-blindness and 
after-image. The principal concern for pilots is the 
possibility of being illuminated with a laser during terminal 
operations, which include approach, landing, and take-offs. 
Pilots conducting low-altitude operations at night are 
particularly vulnerable to accidental or malicious laser 
illumination.
    Let me state at the outset that to date no accidents have 
been attributed to the illumination of air crew members by 
lasers. While a few of these incidents have resulted in 
reported eye injury, no civilian pilot has had any permanent 
visual impairment as the result of laser exposure. However, 
given the considerable number of reported laser incidents, over 
400 since 1990 and approximately 112 since November of 2004, 
the potential for an aviation accident does exist.
    I want to emphasize that the Department of Homeland 
Security, DHS, assures us that they have no information that 
would suggest that any of these incidents is in any way related 
to terrorist activity. FAA's role in the issue surrounding the 
use of lasers rests with our mandate to ensure aviation safety. 
There are other entities who are investigating this issue from 
a security perspective. It is important for everyone to 
understand the various roles and responsibilities.
    The FAA has no authority to either regulate lasers or take 
enforcement action against individuals who illuminate aircraft 
cockpits. The Food and Drug Administration, FDA, has authority 
to regulate lighting products and electronic product radiation.
    With respect to the enforcement issue, Federal, State and 
local law enforcement entities have the authority to prosecute 
individuals who recklessly illuminate aircraft cockpits. 
Certainly, FAA has an important role in working with these 
entities to ensure aviation safety, but our role is not a 
primary one.
    Based in part on historical laser data and military 
research on vision performance lost from laser exposure, the 
FAA issued a revised FAA Order 7400.2 on December 31, 2002 
which includes new guidelines for flight-safe exposure limits, 
FSELs, in specific zones of navigable airspace associated with 
airport terminal operations. The revised FAA Order 7400.2 
establishes four specific zones: the laser-free flight zone; 
the critical flight zone; the sensitive flight zone; and the 
normal flight zone.
    The laser-free flight zone includes airspace in the 
immediate proximity of the airport, up to and including 2,000 
feet above ground level, extending two nautical miles in all 
directions, measured from the runway center line. The critical 
flight zone includes the space outside the laser-free flight 
zone to a distance of 10 nautical miles from the airport 
reference point, to 10,000 feet above ground level. Virtually 
all of the lasing incidents to date have occurred in the 
critical flight zone.
    The necessity of establishing laser-free zones around 
airports is documented in the results of a study done by CAMI 
and published in June, 2004. The study consisted of subjecting 
34 pilots to four eye-safe levels of visible laser light during 
four final approach maneuvers in a flight simulator. All test 
subjects were volunteers who participated after giving informed 
consent. Subjective responses were solicited after each trial 
and during an exit interview. The pilots were asked to rate the 
affect the laser exposure had on their ability to operate the 
aircraft and on their visual performance.
    Approximately 75 percent of the responses solicited from 
subjects indicated they had experienced adverse visual effects, 
resulting in some degree of operational difficulty when 
illuminated by laser radiation during final approach maneuvers 
at or below 100 feet above ground level. Even at the lowest 
level of laser exposure, two-thirds of the responses indicated 
that the subjects experienced glare, flash-blindness or after-
images.
    However, it is important to note that all subjects were 
able to maintain operational control and safely land the 
airplane or successfully execute a missed approach. 
Significantly, none of the actual lasing incidents against 
aircraft to date have occurred within these parameters.
    In response to the recent increase in reports of pilots 
being illuminated with lasers, and as a result of the findings 
of the CAMI report, Secretary Mineta announced on January 12, 
2005 a new FAA policy designed to protect air crews and 
passengers and to discourage future laser incidents. Secretary 
Mineta directed the FAA to distribute an advisory circular, AC 
70-02, which contains new guidelines to give pilots, air 
traffic controllers, and law enforcement timely information 
about laser incidents. The new guidelines will help pilots 
identify areas where lasers have been sighted, will assist 
controllers in reporting laser incidents, and will give law 
enforcement officers the information as quickly as possible in 
order to investigate and prosecute those persons who put 
aircraft at risk.
    At the present time, there is no system or device that can 
be installed on an aircraft or given to pilots and crew to 
protect them from these incidents, without possibly affecting 
operational performance. The U.S. military has dedicated a 
great deal of time and research to finding ways of protecting 
their pilots from an enemy's use of lasers to impair pilot 
performance during military flight operations. Their efforts 
have established that there is no easy answer to this problem.
    For example, efforts to develop pilot goggles that will 
screen out all the wavelengths of visible lasers and thereby 
prevent any adverse effects from exposure to them, have proven 
to have limited practical application and may even be 
potentially hazardous to flight safety. Screening out the 
wavelengths that produce red and green lights, the most common 
color of lasers, will also impair the pilot's ability to read 
the instruments in current cockpits, which are often displayed 
in either green or magenta. The goggles can also impair the 
pilot's vision by reducing the amount of visible light. Both of 
these results are unacceptable.
    Consequently, other initiatives that call for installing 
filters or screens on cockpit wind screens to intercept or 
deflect lasers could similarly result in an unacceptable 
reduction of critical visibility for safe flight. Protecting 
pilots from the real but remote risk of being illuminated by a 
commercially available laser powerful enough to cause an 
accident cannot be accomplished by a solution that could create 
an even more dangerous operating condition.
    We at the FAA are working with the Department of Defense to 
explore technologies and protocols that may provide protection 
for pilots and air crews, while not impairing their ability to 
operate their aircraft. An alternative solution may be an 
operational one. We are hopeful by obtaining and evaluating 
more information on the effects and risks of laser 
illumination, FAA might at some point be in a position to 
develop protocols for pilots to follow to best mitigate the 
effects of a laser, much as we have for other operational 
challenges.
    In the interim, the FAA will continue to partner with the 
Department of Homeland Security to better define the threat 
laser devices pose and identify countermeasures to minimize the 
risk to aviation safety. We will also work collaboratively with 
Department of Defense scientists to determine whether any of 
their research can have practical applications to the civil 
aviation arena. It is our hope that the Advisory Circular the 
Secretary announced earlier this year will result in an 
improvement in the ability of State and local government to 
prosecute individuals who intentionally attempt to focus lasers 
on aircraft.
    The FAA will continue working with the FDA and the Consumer 
Product Safety Commission to improve product labeling and 
better educate the general public concerning the potential harm 
from the inappropriate use of lasers.
    Mr. Chairman, this concludes my testimony and I would be 
happy to answer any questions you may have.
    Mr. Mica. Thank you. I appreciate your testimony. As I 
said, we will defer until we have heard from all of the 
panelists.
    Before I go to the next panelist, I have had a request by 
Mr. Boswell to make an opening statement. He has another 
obligation. I would like to recognize him, if I may.
    Mr. Boswell. Thank you, Mr. Chairman. Again, I appreciate 
your having this important hearing. I will read the record on 
this very carefully.
    Mr. Hayes and I talk about these things from the fact that 
we are still flying airplanes and proud that we are. Yesterday, 
I was test flying a Grumman 430 in my little Comanche and, wow, 
what a gadget. But I was thinking about today a little bit, and 
this was broad daylight and so on, but last night, or this 
morning, rather, about, I don't know, it must have been around 
one o'clock. I was landing at Dulles, beautiful lights, 
approach, looking over the pilot's shoulder. I wondered what 
would happen if you got struck by a laser right then. I assume 
your night vision is gone. How long? I would like for you to 
address if you can, or somewhere.
    Make an missed approach, how long is the recovery? Is it 
normal time? Of course you are subject to maybe it would happen 
to you again on the second approach, but nevertheless. I do not 
know what the answers are to this. A thought came to my mind 
very much during your testimony that goggles, when you think 
about depth perception and all these things, it might be more 
of a hindrance than a help and so on.
    So I think it is very timely we are doing this. You know, 
certainly, and I cannot emphasize how much all of us feel that 
the importance of the airline industry, commercial aviation is 
to our country in many, many respects. I do not need to go 
there. We know that. But general aviation is too. It is a big 
deal. We have just got to do our best to keep them flying and 
be safe, and there are no guarantees for anything. We know 
that, but we have to do the best we can.
    So I salute you for your efforts. I want you to keep it up. 
If there is something that we need to do, and I know that is 
why our Chairman and Ranking Member have called these type of 
hearings, is so we can be knowledgeable. It is a moving thing. 
It is not static at all. I just want to encourage you to really 
give it your all. I think you are. I have confidence. I like 
the representation I see here at this hearing this morning.
    I think that if we put smart people, and I mean that, smart 
people like you together in the same room, you will work out 
some solutions. That is what we need to do. Whether it is to 
help that military pilot that is taking off in his F-16 out of 
Des Moines and heading for Iraq, or whether it is the general 
aviation airplane that would allow me and one of my colleagues 
to get in here late last night, or this morning rather, or 
whatever. We depend so much in this country on our ability to 
be able to fly and fly safely.
    We have to keep flying. We have to keep flying. So we have 
to do our best. I thank you for your input. You might address 
that before I have to leave. I can read about it, if the 
Chairman does not want to go there, the in recovery time, once 
you get that with the laser.
    Thank you very much and thanks for your hard work.
    Mr. Mica. Thank you. We may have witnesses address that.
    We will return now to our panel, and recognize Mr. Randall 
Walden, Technical Director of Air Force Rapid Capabilities 
Office. He is accompanied by Colonel Peter Demitry. Welcome 
sir, and you are recognized.

  STATEMENT OF RANDALL WALDEN, TECHNICAL DIRECTOR, AIR FORCE 
    RAPID CAPABILITIES OFFICE, ACCOMPANIED BY COLONEL PETER 
   DEMITRY, ASSISTANT AIR FORCE SURGEON GENERAL MODERNIZATION

    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Chairman, members of the subcommittee and staff, I 
sincerely appreciate the opportunity to appear before you today 
and answer questions regarding the visual warning system, a 
system that was developed by the United States Air Force Rapid 
Capabilities Office in support of North American Aerospace 
Defense Command, or NORAD's mission.
    Accompanying me today is Colonel Peter Demitry. Colonel 
Demitry is a medical doctor, a flight surgeon and command 
pilot, and was instrumental in setting the eye-safe design 
parameters for the visual warning system.
    The visual warning system is a ground-based light signal 
similar to those defined in Federal Aviation Regulation 91-125. 
The visual warning system that was developed by the Air Force 
is controlled by NORAD and safely emits a sequenced red and 
green light in a narrow beam directed only at the intended 
aircraft. These visually conspicuous lights, distinct from all 
other lights in the National Capital Region, and from those 
currently used by FAA air traffic control, are intended to warn 
pilots who are operating in an unauthorized manner with respect 
to FAA regulations and who may appear to be a threat to the 
National Capital Region.
    To enable this signal to both selectively and effectively 
warn two attributes were required: one, a highly visible light 
of multiple colors; and two, a very narrow beam. To meet both 
of these requirements, a low-power laser system that displays 
alternating green and red lights was developed and tested for 
safety. Prior to using the alternating green and red lights, a 
technical chain of events must occur. These events include 
tracking the intruder aircraft by precision radar, tracking the 
intruder by visual or infrared camera, a decision to use the 
visual warning system, and finally illumination of the visual 
warning system.
    For a decision to be made to use the visual warning system, 
an aircraft must enter the National Capital Region airspace 
without authorization and fail to respond to air traffic 
control. Both of these occurrences are violations of FAA 
procedures for flight within the restricted flight zones and 
represent a threat to general and commercial aviation. Details 
of the decision process for use of the visual warning system 
are under the operational control of NORAD.
    In cooperation with the Surgeon General of the Air Force, 
the Air Force Research Laboratory Optical Radiation Safety 
Team, the FAA Flight Standards Office, the FAA Airspace and 
Rules Division and the Massachusetts Institute of Technology 
Lincoln Laboratory, we know the visual warning system to be 
eye-safe.
    The visual warning system consists of two one-and-a-half 
watt lasers that produce red and green light, two telescopes, 
and two cameras for precision tracking, all mounted on a fully 
controllable pedestal. Each laser's level of light is passed 
through a telescope to disperse the power over an area 
sufficiently large enough so an aircraft will be illuminated at 
long ranges. These pairings of laser sources with telescopes 
render the level of illumination eye-safe not only at the 
aircraft, but also at the output of each telescope. The 
American National Standards Institute, or ANSI, defines the 
term ``eye-safe'' associated with lasers. At all ranges, the 
level of light radiating from the telescope is less than the 
ANSI maximum permissible exposure level for eye safety.
    Based on the ANSI standards and additional guidance from 
the Air Force biophysicists and physicians who specialize in 
lasers in the anatomy of the eye, these light levels were 
defined and laboratory-tested. Prior to moving this system to 
the National Capital Region, we received a letter of non-
objection from the FAA for test operation and conducted field 
tests in New England.
    Once the system was moved to the National Capital Region, 
further testing was performed in which we illuminated 
cooperative government aircraft and observers. In the 12 
flights flown in the National Capital Region over the past 
three months, the visual warning system illuminated observers 
for a total of 120 minutes. The observers included flight 
surgeons, FAA personnel, government pilots and others who 
participated in the development of the system. All of this 
development was done with full FAA knowledge and participation.
    The Air Force has developed an enhanced warning capability 
that adds great value to the defense of the National Capital 
Region. The visual warning system aids the safety of general 
and commercial aviation by providing a non-lethal, non-
threatening method to warn pilots before there is an 
opportunity for an innocent errant pilot to be confused with a 
hostile air threat. Perceived air threats to national security 
in the National Capital Region not only impact general and 
commercial aviation. They affect the lives of professionals and 
tourists in our Nation's capital. In the near future, this 
system may even prevent an unnecessary evacuation of personnel 
from government buildings like the U.S. Capitol as seen on June 
9, 2004.
    Mr. Chairman, thank you again for the opportunity to appear 
before the subcommittee. I look forward to answering your 
questions.
    Mr. Mica. Thank you. I take it Colonel Demitry did not have 
an opening statement.
    Mr. Walden. That is correct.
    Mr. Mica. Okay.
    So we will turn to Captain Terry McVenes, Executive Air 
Safety Chairman of the Air Line Pilots Association. Welcome, 
sir, and you are recognized.

STATEMENT OF TERRY MCVENES, EXECUTIVE AIR SAFETY CHAIRMAN, AIR 
                    LINE PILOTS ASSOCIATION

    Mr. McVenes. Good morning, Congressman Mica, Congressman 
Costello and the rest of the Committee.
    My name is Captain Terry McVenes. I am the Executive Air 
Safety Chairman for the Air Line Pilots Association 
International. I have been an airline pilot for 27 years. It is 
a pleasure to be here this morning to represent ALPA's 64,000 
pilots that fly for 41 different airlines here in the United 
States and Canada.
    First of all, I would like to applaud the Committee for 
holding this hearing and for your continuing attention to 
aviation safety and security. As First Officer Winder's earlier 
statement made very clear, pilots, our members, are on the 
front lines of aviation safety every day. Regardless of whether 
a prankster or someone with more sinister intentions caused 
these recent incidents, they underscore the real dangers that 
lasers impose. Federal agencies and legal authorities must 
respond and they must involve pilots every step of the way.
    Lasers are not a new threat to aviation or to ALPA. We have 
been involved in dealing with the laser hazard since the early 
1990s when the potential dangers of powerful outdoor displays 
such as those used by Las Vegas casinos first became known. 
More recently, private individuals have used lower-powered 
lasers available on the Internet to create visible beams in our 
airspace. We are aware of at least 20 laser events in a very 
short two-week period just between December 23, 2004 and 
January 2, 2005. Hundreds of these events have taken place over 
the last several years.
    Lasers affect pilots in one of four ways, each with 
increasing seriousness: distraction, disruption, 
disorientation, and finally incapacitation. While we are 
extremely concerned about the risks to the health of our 
pilots, the public needs to understand that every commercial 
aircraft carries a professional two-pilot crew, and it is 
highly unlikely that an individual could incapacitate both 
pilots simultaneously, so flying remains extremely safe as a 
result of this dynamic.
    As this Committee well knows, no practical and reliable 
technology exists today to shield airline pilots from the 
effects of lasers. However, research is ongoing to develop 
filters that could be used for airline operations and ALPA 
supports that research.
    As Mr. Costello and Mr. Sabatini have already mentioned 
this morning, on January 11 of this year the Federal Aviation 
Administration issued an advisory circular that requires all 
pilots to immediately report any laser sightings to air traffic 
controllers. It also requires controllers to share that 
information through the Federal Domestic Events Network. This 
DEN is designed to provide real-time security-related 
information about events affecting air traffic operations to 
the FAA, to the TSA and to other government stakeholders, 
including law enforcement agencies. Both the DEN and the new 
guidance to pilots are critical steps forward and ALPA commends 
Transportation Secretary Norman Mineta for his leadership on 
this action.
    I do want to note that while lasers are clearly an aviation 
safety issue, the extent to which they are an aviation security 
threat is still unclear. On January 12 of this year, Secretary 
Mineta reported that there is, ``no specific or credible 
intelligence that would indicate that these laser incidents are 
connected to terrorism.'' Law enforcement and intelligence 
community sources confirm that the recent spate of laser 
incidents cannot be linked to terrorism.
    That said, there is little doubt that lasers will continue 
to be an aviation safety concern in the future. As our Nation 
responds to 64,000 pilots of ALPA, we make the following 
recommendations. First of all, because pilots are on the front 
lines of aviation safety, it is critical that we have the 
information that we need to do our jobs. ALPA calls on the 
Federal Government to improve that information flow both for 
reporting incidents and for informing pilots about major 
security concerns while they are in the cockpit.
    Number two, government and industry must support work 
underway that will help pilots respond in the event of an 
unauthorized laser illumination. That has to include creating 
operational procedures, conducting simulator training and 
adapting ground school materials.
    Number three, we recommend that the government and industry 
must accelerate research and development of technology that can 
protect airline crews from the potential of this risk of 
lasers.
    Number four, while the Federal Government has publicly said 
that it knows of no credible evidence that terrorists may be 
involved with these laser incidents, we must not assume that 
this will always be true. ALPA urges the DHS and other agencies 
to continue monitoring for any indications of terrorist 
activities.
    And finally, ALPA recommends that law enforcement agencies 
fully investigate and prosecute those who intentionally 
illuminate cockpits with lasers to the maximum extent of the 
law.
    Flying remains extremely safe. However, our country must 
remain vigilant and use responsible fact-based approaches to 
evaluate all aviation safety and security threats, including 
those represented by lasers. By virtue of our passion and our 
professionalism, pilots have an unrivaled stake in aviation 
safety and security.
    We look forward to working together with the Federal 
agencies and with Congress to address lasers and any other 
threats to passengers, crew or cargo. The panel sitting before 
you today is made up of pilots and Federal agency leaders, a 
true testament to the fact that aviation security is more than 
just protecting pilots or planes. It is about protecting our 
Nation.
    Thank you.
    Mr. Mica. Thank you for your testimony.
    I thank each of our witnesses for their participation and 
comments.
    We will turn now to some questions. I will lead off with a 
few questions. First of all, First Officer Winder, the 
individual or individuals that were involved in your particular 
incident, were they identified or arrested?
    Mr. Winder. No, sir. We have not to date been able to find 
out who the perpetrators were. We did find a generalized 
location where they probably operated from. It was a light 
industrial complex in South Central Salt Lake near a graveyard.
    Mr. Mica. In your incident, I guess it was September.
    Mr. Winder. September 22.
    Mr. Mica. Yes. It was prior to FAA's issuing their ruling 
in January and their guidelines.
    Mr. Winder. Yes, sir.
    Mr. Mica. Are you familiar with what they have issued as 
far as guidelines for reporting, et cetera? And do you think 
that is adequate?
    Mr. Winder. Yes, sir. I am now familiar with it. I will 
probably put myself on report by saying knowing what I know 
now, and doing what I or we did as a crew, is very different, 
because we did not respond. Having no previous experience or 
knowledge or understanding, we were kind of treading new water. 
We did not really know what we were doing.
    Mr. Mica. So when did you end up reporting? And to whom did 
you report the incident?
    Mr. Winder. We reported to the FAA during the incident. We 
failed to follow-up on that that night. We did not understand 
the complexity of the issue. The very next morning very early, 
we reported it to our company officials, our Delta corporate 
security. That kind of got the ball rolling, sir.
    Mr. Mica. Okay.
    Mr. Winder. The FBI got involved immediately, the TSA, 
Anti-Terrorist Task Force.
    Mr. Mica. When did the FBI get involved, again?
    Mr. Winder. Why did they?
    Mr. Mica. When?
    Mr. Winder. When? The very next morning.
    Mr. Mica. The next morning, okay.
    Mr. Winder. So the morning of the 23rd they got involved.
    Mr. Mica. So there was some follow-through by FAA.
    Mr. Winder. Yes, sir. Tremendous.
    Mr. Mica. Okay.
    Mr. Sabatini, according to what I think you testified, 
there have been about 112 reports of incidents in 2004, which 
is a dramatic increase over the previous time, since I think 
you said 1990. In many of those incidents have the perpetrators 
of using lasers in an improper fashion been identified?
    Mr. Sabatini. Well, I do not have the information that the 
law enforcement organizations would have in terms of that 
information. But we do know that, as Mr. Winder has explained, 
there is now in place a very rigorous procedure to be followed.
    Mr. Mica. I am told there are only three or four incidents 
in which they have actually been able to, or where they have 
gone after folks and have been able to identify them or 
prosecute them, out of the 112. Does anyone know if that is the 
case? ALPA?
    Mr. McVenes. No, we are not aware of a whole lot of 
prosecutions on it, that is true.
    Mr. Mica. Since January, we have some new guidelines in 
place. I understand most recently, and with the provisions of 
the Patriot Act, that an individual can be prosecuted at the 
Federal level. Is that an adequate enforcement tool, Mr. 
Sabatini?
    Mr. Sabatini. It is my understanding that the law 
enforcement organizations have the tools necessary to prosecute 
individuals who may participate in such activities.
    Mr. Mica. Again, I think you testified that the FDA has no 
authority to prosecute or go after these folks, no enforcement 
authority. You talked about FDA regulating the equipment 
itself, the laser equipment, and then you said Federal, State 
and local. In instances like this, though, I am not sure that 
State or local really have much jurisdiction and it would also 
be questionable where maybe the individual perpetrates it, he 
commits an offense to an aircraft in the sky which might be 
over two or three jurisdictions. So it seems like it is going 
to end up in the Federal bailiwick for enforcement.
    Do you feel that we need to adopt any additional laws, FAA 
regulations, anything to deal with it? What we are seeing is a 
pretty dramatic increase in the incidents.
    Mr. Sabatini. Mr. Chairman, I think there is a popular 
case, the one up in New Jersey where a police helicopter was 
irradiated and they immediately landed and apprehended the 
individual. It is my understanding that the Federal level, the 
Patriot Act, was used as a tool to prosecute this individual.
    If there is additional need for stronger authority, I am 
not familiar with that.
    Mr. Mica. Again, do you think that FAA could do something 
by rule, or do we need to do it by law?
    Mr. Sabatini. Sir, I would think that it would be done by 
law.
    Mr. Mica. Okay. I was kind of surprised. I flew into 
Dallas-Fort Worth on Thursday and was kind of shocked by 
reading that there was an incident. I flew on a Friday and I 
understand there was an incident on Thursday, which I am not 
certain whether they found anyone who perpetrated that laser 
incident.
    ALPA has some recommendations, improving the reporting of 
incidents. Can you elaborate on that? Are the guidelines that 
were put in place in January insufficient and how would you 
improve reporting?
    Mr. McVenes. I would not say that they are insufficient. 
Certainly, it was a very first step for putting some procedures 
in place that both the air traffic controllers could use, and 
then provide a means for getting that information to the 
appropriate government agencies. We also have to make sure that 
the pilots are getting the information as well.
    Part of the requirement is for the air traffic controllers 
to, if they get a report of a laser incident, that they are to 
report that to other crews in the area. We just have to make 
sure that those procedures are being followed because 
information is everything for us in our business. We have to 
have it so we can do our jobs and keep our passengers and cargo 
safe.
    Mr. Mica. Final question and I may have some additional 
questions, but I want to give other members an opportunity. Mr. 
Walden, the Air Force is putting into place this sort of 
warning system. It is not operational.
    Mr. Walden. That is correct.
    Mr. Mica. So your primary means of the warning system is a 
laser technology. How would pilots be able to differentiate 
between a random misuse of lasers like we have heard most of 
the incidents out today, versus your system?
    Mr. Walden. I think the main way they would tell the 
difference is it has a sequence of red-red-green lights that 
you would see based over about a one second interval, and that 
would be repetitive. It would also be directed at intruder 
aircraft to specifically identify that aircraft, as opposed to 
just randomly doing that.
    Mr. Mica. Is this a backup? Is this a last resort? Are 
there communications and other notifications, when they fail, 
is that what this is designed for or what?
    Mr. Walden. Yes, sir. It is a form of communication.
    Mr. Mica. But it is a backup. You will use other methods of 
notifying someone that they have intruded into airspace before 
you get to this laser.
    Mr. Walden. Yes, sir.
    Mr. Mica. How long before you plan to implement this?
    Mr. Walden. That is really up to NORAD. My understanding is 
they are working closely with the FAA to come up with a 
schedule to actually take it operational. But for specifics on 
that schedule, you need to really talk to NORAD.
    Mr. Mica. Okay. Let me yield to Mr. Costello at this point.
    Mr. Costello. Mr. Sabatini, you have suggested in your 
written testimony that there may be operational mitigation 
techniques that crews could employ and use. You have heard the 
testimony of Captain McVenes about the ALPA recommendations. I 
wonder if you might tell us where the FAA is and how they feel 
about the recommendations of ALPA.
    Mr. Sabatini. I would support the recommendations made by 
ALPA. I would add that we have a work group working with a 
number of different agencies and professionals to help us 
develop what those protocols might be. They might be examples 
such as engage the autopilot or look away, obviously, and lower 
your head below the instrument panel so that you avoid the 
direct viewing of the light. But it is premature for me to say 
what those might be. Those are just some examples, Mr. 
Costello.
    Mr. Costello. This work group that you referred to, how 
long have they existed and how long have they been working on 
this issue?
    Mr. Sabatini. They have been in existence probably less 
than a year, but I expect to have their recommendations by 
August of this year.
    Mr. Costello. It has been suggested by some that pilots 
could wear some type of goggles to mitigate the effects of 
laser attacks. I just wonder what your thoughts are on that 
idea.
    Mr. Sabatini. I think the technology has some promise, but 
as we know it today, it has some significant limitations, 
primarily with civilian airliners where the cockpits today 
utilize many different colors to indicate the importance of the 
information that is being presented, such as red, green, 
magenta, et cetera. When you consider that a goggle will filter 
out that wavelength, that particular color, the red or the 
green, you would actually be inducing a limitation and the 
ability of a crew member to see some important information. So 
at this point in time, we do not think it advisable to install 
on or have crew members wear.
    Mr. Costello. Mr. Winder, I wonder if you might respond to 
the issue of the suggestion that goggles may help prevent 
blurred vision and so on.
    Mr. Winder. With respect to laser energy, and because of 
the multitude of displays we are required to closely monitor, 
especially on final approach and landing, unless we can come to 
a technological conclusion on how to avoid filtering out 
important color signals that we receive, we just do not have 
that technology right now.
    Goggles, as it were, I think would be an immediate fix, but 
having both pilots wear goggles probably would not be the best 
way, especially today as the technology is presently 
constituted.
    Mr. Costello. Mr. Walden, it seems a little ironic that we 
are talking about the potential danger of lasers being directed 
at pilots and crews, while at the same time that NORAD is 
planning to implement a laser-based visual warning system. I 
wonder if you might comment as to how you believe that this 
system can be developed where it is safe for pilots.
    Mr. Walden. There were three main things that we came up 
with when we designed the system. The first one was that it had 
to be eye-safe at all ranges, to include right up to the 
aperture. The second thing is that it needed to be a very 
narrow beam so it specifically focuses on an intruder aircraft. 
And then finally, operator controls that allow it to be turned 
off when the decision needs to be made.
    I do not want to comment on the operational impacts 
associated with what NORAD is going to do procedurally, but we 
can take that and get that information back to your staff.
    Mr. Costello. Very good.
    A final question for Mr. Sabatini. I am wondering what type 
of lasers did the FAA employ in their study to determine the 
effects on pilots?
    Mr. Sabatini. We used that which is considered not to 
exceed the maximum exposure limits. If you need some specifics, 
I do have Dr. Van Nakagawara who conducted the testing right 
here behind me if you need more specific information.
    Mr. Costello. I would ask that you submit the information 
to us for the record.
    Mr. Sabatini. I would be happy to do that, sir.
    Mr. Costello. Thank you.
    Thank you, Mr. Chairman.
    [The information received follows:]

        A collimated beam of green light with a peak spectral 
        irradiance of 532 nm wavelength was generated by a continuous-
        wave doubled Nd:YAG laser.

    Mr. Mica. Thank you.
    Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman. I appreciate your 
calling this hearing because with the great increase in the 
number of these incidents, this is certainly something that is 
appropriate to look into.
    I notice that in our briefing paper it says in the March 
2005 issue of the Airline Pilot magazine, the Air Line Pilots 
Association recommends several tactics to reduce the impact of 
a laser, including turning up cockpit lighting to maximum 
brightness, turning on the autopilot, and shielding the eyes 
from the light source.
    Now, I am not sure exactly what they are referring to on 
shielding the eyes, unless that is the goggles that we are 
talking about. Have you seen that article, Mr. Winder, with 
those recommendations? And what affect do you think that would 
have had in your case?
    Mr. Winder. Yes, sir, I have seen the article. Though not 
directly instrumental in some of these procedures, I did make 
recommendations as a result of my incident. With respect to 
specifically shielding the eyes, it is more of a direct shield, 
for instance your hand or lowering your head or actually 
turning your head away from the light source.
    With respect to our exact incident, it was very, very 
pinpoint light. As a matter of fact, it looked like a light 
saber. It was so intensely bright. There was no problem in 
tracking this light beam all the way down to the source. There 
was no breakup of the light. It was absolutely intense. I would 
think, though not professionally qualified to make a judgment, 
that it was of the extreme energy level laser.
    Mr. Duncan. But since you had not had that happen before, 
you were so caught by surprise you did not think to do any of 
those simple things.
    Mr. Winder. I did not. I think probably my human nature is 
that I see a bright light and I immediately look to see what it 
was. But now having some information and training now, saying 
that if you do see a bright light, do not look at it. Turn 
away.
    Mr. Duncan. Well, it is good that other pilots are being 
warned about this by articles such as that and also hearings 
like this. Is it correct to assume, I know that a lot of people 
maybe do not want to put on goggles. Is it correct to assume 
that something as simple as an expensive pair of sunglasses 
would be sufficient to assist with this problem, Mr. Walden?
    Mr. Walden. I believe that we can assist in making that 
better. Right now, I would kind of like to refer to my medical 
doctor here to help me out on that one question.
    Mr. Duncan. Sure.
    Mr. Demitry. Sir, that question comes up very, very 
frequently among all air crews worldwide. Succinctly, the 
answer is no. Sunglasses do not suffice in any way, shape or 
form for adequate protection against laser radiation.
    Mr. Duncan. Well, I know that it has been stated here that 
the Federal Government has authority under the Patriot Act to 
prosecute people who do this. I know that it would be very, 
very difficult to apprehend people who do this, just as in Mr. 
Winder's case, but I think that what we should check into is, 
even though there is authority, are the penalties sufficient, 
and we need to make sure that the penalties are pretty stiff 
and strong for an incident like this, and we should prosecute 
somebody to the hilt to set an example if and when we have a 
rare case where we are able to catch somebody doing this. I 
think it is a very serious thing and I am concerned about the 
great increase in the number of these incidents. We need to 
watch that to see if it continues to go up.
    Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you.
    Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman.
    First I would like to ask you, Mr. Walden, whether or not 
the DOD or the Air Force have analyzed the threat that would be 
posed by military-grade lasers where we have an even greater 
threat. As I understand it now, we are talking about lasers 
that almost anyone can buy over the counter.
    Mr. Walden. I have not looked into that specific area. I 
know that Colonel Demitry has looked in that area, but for an 
open forum today, it probably would not be appropriate to touch 
on some of those issues.
    As far as my office, again our hope was to make sure that 
we bring a safe and very effective visual warning system about 
to aid not only the FAA, but NORAD's mission.
    Ms. Norton. Mr. Chairman, these military-grade lasers are 
something I think would be of interest to the Committee. We may 
need a secure briefing to know where we are on them, but I 
doubt that al Qaeda will buy lasers across the counter and try 
to disable one of our airplanes. So I am very interested in 
military-grade lasers.
    Mr. Walden, you indicated in your testimony that, oh, first 
let me ask whether or not it is possible with the use of the 
over-the-counter lasers that both a pilot and a co-pilot could 
be disabled in the way Mr. Winder was? Or is it likely that 
only one of the pilots would be temporarily disabled?
    Mr. Walden. The best way to answer it is, it really kind of 
depends. It depends on the weather conditions. It depends on 
how accurate you can point the laser. I believe certainly you 
can build lasers out there that can reach out a great distance.
    Ms. Norton. Including the kinds of lasers that anybody can 
buy?
    Mr. Walden. Again, I am not familiar so much with the 
specific market out there on the lasers. They are sufficiently 
powerful enough to at close distances injure an eye. Again, I 
would turn to the laser expert certainly from the air crew 
point of view and a medical doctor. Colonel Demitry, do you 
have any comments on that?
    Mr. Demitry. Ma'am, if you and I were to look on the 
internet, it would take us less than three minutes to find a 
laser that was sufficiently hazardous to permanently disable 
the human eye for many miles.
    Ms. Norton. So given the distance from which these lasers 
have been fired, I take it that you believe that both pilots 
could be disabled?
    Mr. Demitry. I did not go that far, ma'am, and in open 
forum I would prefer to address that question and that scenario 
in a closed forum as well. We have thought about those issues 
for the military applications. We have been studying this for 
many, many years and have multiple active programs. But clearly 
in an open forum, any of us could go on the Internet and there 
are many, many. You would have to shop it to find the hazardous 
laser du jour that you would want to just buy online. After 
that, you would be able to put out some damage.
    Ms. Norton. Let me move to the NORAD system that has been 
tested here in this region. Is the plan to ultimately spread 
this kind of laser protection system to other major airports? 
This airport has not been one of the airports, I believe, and I 
am thankful to say, that has had one of these incidents.
    Mr. Walden. Not to my knowledge, but again that would be a 
great question for NORAD and the mission that they need to 
undertake for their overall Operation Noble Eagle.
    Ms. Norton. Final question. I would like to hear what 
Captain Winder and Captain McVenes think about the system for 
the NORAD system. In my comments, I indicated at least in this 
region, if we cannot make radio contact, then there is nothing 
else to do virtually. I mean, some Captain may try to shoot the 
person. That, of course, is full of risk to the plane and to 
the passengers. So basically what we have is either that, if a 
pilot happens to be armed, and not all of them are armed, or 
shoot down the plane.
    So I would like to know what you think, particularly 
considering that in your statement, Mr. McVenes, you indicated 
that you had some concerns about startling, distracting or 
disrupting pilots, causing some kind of safety concern.
    Mr. McVenes. Yes, that is pretty much our concerns right 
now with the system, but the real issue here is that we are 
only familiar with the system like everybody else is in terms 
of what we have read in the newspapers. We have not been 
involved with any of this, and as the comments I made in my 
statement, is we have to have the pilots involved with these 
things so that we can adequately learn about them, address them 
and provide input as to their applicability out there in the 
real world.
    Ms. Norton. Mr. Winder, do you have anything to say on 
that?
    Mr. Winder. No, ma'am. I agree. I think that it will be a 
timely manner that those good folks through NORAD will probably 
embrace us at ALPA and the Airline Association and we will take 
a serious look at it.
    Ms. Norton. Very important.
    Yes, sir, Mr. Sabatini?
    Mr. Sabatini. I would like to volunteer some information 
regarding some of the questions you have asked. The testing we 
have done clearly indicate that while there is visual 
impairment to the flight crew members, it has not in any way 
caused loss of control of the aircraft, so operational control 
of the aircraft is maintained at all times. Also, when you 
consider the sophistication you would need with a laser to 
pinpoint and sight an aircraft while it is moving at high 
speed, and constantly keep it focused on a pilot's eye, and 
when you consider your question of two pilots, to focus on two 
pilots at the same time, it leaves a great deal to be desired, 
given what is available.
    Well, I will stop there.
    Ms. Norton. Thank you. I think the earliest involvement of 
the pilots would be well advised.
    Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you.
    We have two votes coming up. Mr. Hayes, we have about six-
and-a-half minutes to divide. Did you or any other members have 
questions? If you would like to go ahead, Mr. Hayes, and then 
we could give Ms. Johnson the balance of the time, so we will 
split it up.
    Mr. Hayes. Thank you, Mr. Chairman, for the meeting, and 
thank you, gentlemen, for being here.
    I am coming at this from a pilot's perspective. A couple of 
quick questions, let me ask the questions, and then you can 
respond in the time available.
    What is the penalty for being caught with a laser now and 
lasering an aircraft? And also, how often is this occurring? 
What is the legitimate use, Colonel, of the laser that you can 
buy over the Internet? And then last but not least, general 
aviation obviously is involved in this. We have totally 
different kinds of wind screens from very thick glass on a 
pressurized aircraft, to thin plastic on a 172. I would ask 
that as you proceed with the testing, you make sure that 
someone like AOPA provides their 172 Bonanza or whatever to 
make sure that you have a good look at what is going on there. 
And then also factor in all the other different aspects of 
this.
    I want to start with the legitimate use of the laser. That 
is really puzzling to me.
    Mr. Demitry. Sir, I will not take much time. Legitimate 
uses would include medical uses, research, even industry is 
using lasers more and more in telecommunications. The type of 
that are nuisance lasers, just for having one, sir.
    Mr. Hayes. They are just like a flashlight. You can point 
them, and a medical laser would not be something you would 
carry around in your hand.
    Mr. Sabatini, what is the penalty now if caught?
    Mr. Sabatini. If we use the New Jersey example, they could 
be subject to the Patriot Act.
    Mr. Hayes. Okay, and is their active jail time? What is the 
sentence?
    Mr. Sabatini. I do not know what that information is.
    Mr. Hayes. Well, it is a very serious matter, so if the FAA 
would consult with us and let us know if there are additional 
legal things that need to happen.
    Mr. Walden?
    Mr Walden. Sir, you brought up the question of putting a 
laser through a windscreen. We did do some of that testing that 
you brought up, and that is particularly looking at different 
thicknesses of windscreen off of actual aircraft to 
characterize the effect of the visual warning system.
    Mr. Hayes. Okay. Well, again, make sure that general 
aviation provides any of the assets that again, my windscreen 
in front is very thick. The one on the side is not so thick.
    First Officer Winder?
    Mr. Winder. Sir, from the internet just before I left home, 
I want to read you the first line. You asked the question why. 
Quote, ``Imagine being able to wield a laser light saber that 
extends for 20 miles; Imagine being a standout as you point 
your green beam into the heavens or around your neighborhood; 
Imagine being known as a wicked laser master.''
    Mr. Hayes. Weird stuff. Gotcha.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Ms. Johnson?
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Winder, did you have permanent eye damage?
    Mr. Winder. No, ma'am, not permanent, but I have some 
lasting effect, just some mild shadowing and my right eye is 
more light-sensitive in extreme light conditions, direct 
sunlight or in the snow.
    Ms. Johnson. Thank you.
    I guess it is to Mr. Sabatini I need to ask this. What kind 
of coordination is going on between the Department of Defense, 
the Department of Homeland Security, to address this threat? 
What kind of public outreach for education is going on?
    Mr. Sabatini. We are working very closely with FBI, DHS and 
DOD, and it is the Laser Eye Protection Task Force. It is 
ongoing as we speak. They are addressing the issues that we are 
describing here today. The public education primarily takes 
place as a result of an event like what took place in New 
Jersey which was widely publicized and will hopefully educate 
the public as to the danger of innocently or maliciously 
radiating an aircraft.
    Ms. Johnson. Thank you, Mr. Chairman. I have more 
questions, but I will withhold them for a vote.
    Mr. Mica. We have about two minutes remaining. Any other 
members have questions?
    I would like to thank our panelists for their participation 
today. We may have some additional questions and some of them 
may be of a sensitive security nature that we may want to 
submit to the panel, so if you could respond to the 
subcommittee, we would appreciate it.
    I thank each and every one of you for your participation, 
for the opportunity to look at what has not been a major 
problem, but could pose some serious threats and challenges to 
both pilots and passenger safety.
    There being no further business then to come before the 
Aviation Subcommittee, this hearing is adjourned.
    Thank you.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned 
to reconvene at the call of the Chair.]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                    

</pre></body></html>
